Case: 20-2412

Document: 10

Filed: 09/11/2020

Pages: 2

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

EverettMcKinleyDirksenUnitedStates Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604

ORDER
Submitted September 4, 2020
Decided September 11,2020
Before
KENNETH F. RIPPLE, Circuit Judge
DIANE P. WOOD, Circuit Judge
MICHAEL Y. SCUDDER, Circuit Judge
KIMBERLY JOHNSTON,
Plaintiff - Appellant
No. 20-2412

v.
MARK J. MCGINNIS and STATE OF WISCONSIN,
Defendants - Appellees

Originating Case Information:
District Court No: l:20-cv-00810-WCG
Eastern District of Wisconsin
District Judge William C. Griesbach
The following are before the court:
1. CIRCUIT RULE 3(b) FEE NOTICE, BACKGROUND AND IFP ANSWER, filed on
August 21, 2020, by pro se appellant.
2. RULE 8(2) MOTION FOR STAY OR INJUNCTIVE RELIEF PENDING APPEAL, filed on
September 3, 2020, by pro se appellant.
This court has carefully reviewed the final order of the district court, the record on appeal,
appellant's motion to proceed in forma pauperis, and appellant's motion for an injunction
pending appeal. Based on this review, the court has determined that any issues which could
be raised are insubstantial and that further briefing would not be helpful to the court's

Case: 20-2412

Document: 10

Filed: 09/11/2020

Pages: 2

No. 20-2412

Page 2

consideration of the issues. See Taylor v. City of New Albany, 979 F.2d 87 (7th Cir. 1992); Mather
v. Village of Mundelein, 869 F.2d 356, 357 (7th Cir. 1989) (per curiam) (court can decide case on
motions papers and record where briefing would be not assist the court and no member of
the panel desires briefing or argument). The district court did not err in dismissing the
appellant's suit for failure to state a claim. Accordingly,

IT IS ORDERED that the motion to proceed in forma pauperis is DENIED.

IT IS FURTHER ORDERED that the motion for an injunction pending appeal is DENIED.

IT IS FINALLY ORDERED that the final order of the district court is SUMMARILY
AFFIRMED.

form name: c7_Order_3J(form ID: 177)

Case: 20-2412

Document: 14

Filed: 10/13/2020

Pages: 1

Mniteii jstaies Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
October 13, 2020
Before
KENNETH F. RIPPLE, Circuit Judge
DIANE P. WOOD, Circuit Judge
MICHAEL Y. SCUDDER, Circuit Judge

No. 20-2412
KIMBERLY JOHNSTON,
Plaintiff-Appellant,

Appeal from the United States District
Court for the Eastern District of
Wisconsin.

v.
No. l:20-cv-00810-WCG
MARK J. MCGINNIS, et al.,
Defendants-Appellees.

William C. Griesbach,

Judge.
ORDER
Upon consideration of Plaintiff-Appellant's petition for rehearing filed on
September 25, 2020, no judge in active service has requested a vote thereon, and the
judges on the original panel have voted to deny the petition.
IT IS ORDERED that the petition for rehearing is hereby DENIED.

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN

KIMBERLY JOHNSTON and
JAY L. FUSS,
Plaintiffs,
Case No. 20-C-810

v.
MARK J. MCGINNIS and
STATE OF WISCONSIN,
Defendants.

SCREENING ORDER

Plaintiffs Kimberly Johnston and Jay L. Fuss, proceeding pro se, filed a complaint under
42 U.S.C. § 1983, alleging that their civil rights were violated. The court entered a screening order
finding that Plaintiffs had failed to state a claim but allowed Plaintiffs until July 6, 2020, to file an
amended complaint curing the defects identified by the court. Dkt. No. 12. Johnston filed an
amended complaint on behalf of herself and Fuss on July 7,2020. Rule 11(a) of the Federal Rules
of Civil Procedure requires that every “pleading, written motion, or other paper” be signed by
either an attorney action on a litigant’s behalf, or by the litigant himself. Fed. R. Civ. P. 11(a); see
also 28 U.S.C. § 1654 (“In all courts of the United States the parties may plead and conduct their
own cases personally or by counsel as, by the rules of such courts, respectively, are permitted to
manage and conduct causes therein.”). The Seventh Circuit has made clear that “an individual
may appear in federal courts only pro se or through counsel.” Lewis v. Lenc-Smith Mfg., 784 F.2d
829, 830 (7th Ci. 1986) (citation omitted). Since Fuss did not sign the complaint, he will be

Case l:20-cv-00810-WCG Filed 07/20/20 Page 1 of 4 Document 19

dismissed as a plaintiff pursuant to Rule 11 of the Federal Rules of Civil Procedure. The court
will now screen Johnston’s complaint against Mark J. McGinnis and the State of Wisconsin.
Screening of the Complaint
Regardless of whether a litigant has paid the applicable filing fee, the court is authorized
to screen the complaint to “save everyone time and legal expense.” See Hoskins v. Poelstra, 230
F.3d 761, 763 (7th Cir. 2003). In screening a complaint, I must determine whether the complaint
complies with the Federal Rules of Civil Procedure and states at least plausible claims for which
relief may be granted. To state a cognizable claim under the federal notice pleading system, Plaintiff
is required to provide a “short and plain statement of the claim showing that [he] is entitled to relief.”
Fed. R. Civ. P. 8(a)(2). It must be at least sufficient to provide notice to each defendant of what he or
she is accused of doing, as well as when and where the alleged actions or inactions occurred, and the
nature and extent of any damage or injury the actions or inactions caused.
A complaint must contain sufficient factual matter “that is plausible on its face.” Ashcroft v.
Iqbal, 556 U.S. 662, 678 (2009) (quoting BellAtl. Corp. v. Twombly, 550 U.S. 544, 570 (2007)). “The
pleading standard Rule 8 announces does not require ‘detailed factual allegations,’ but it demands more
than an unadorned, the-defendant-unlawfully-harmed-me accusation.” Id. (quoting Twombly, 550 U.S.
at 555). “The tenet that a court must accept as true all of the allegations contained in a complaint is
inapplicable to legal conclusions. Threadbare recitals of the elements of a cause of action, supported
by mere conclusory statements, do not suffice.” Id. To survive a motion to dismiss, a complaint must
contain sufficient factual matter, accepted as true, to “state a claim to relief that is plausible on its face.”
Twombly, 550 U.S. at 570. “A claim has facial plausibility when the plaintiff pleads factual content
that allows the court to draw the reasonable inference that the defendant is liable for the misconduct
alleged.” Id. at 556. “[T]he complaint’s allegations must be enough to raise a right to relief above the
speculative level.” Id. at 555 (internal quotations omitted).
2
Case l:20-cv-00810-WCG Filed 07/20/20 Page 2 of 4 Document 19

The Court’s Analysis
Johnston alleges that Judge McGinnis retaliated against her by ordering that Johnston’s
property, valued at about $2,000.00, be given to Fuss’s ex-wife in Fuss’s divorce proceeding, In
re the Marriage of Amy L. Fuss and Jay L. Fuss, Case No. 2010FA185 (Outagamie Cty. Wis.).
She alleges that, even though she lives with Fuss and helps take care of him, her property is
separate from his, and therefore, Judge McGinnis could not take her property without due process.
She also claims that the State of Wisconsin has allowed Judge McGinnis to “run roughshod” over
the rights of individuals who aid those who are disabled. Dkt. No. 16 at 7.
“A judge has absolute immunity for any judicial actions unless the judge acted in absence
of all jurisdiction.” Polzin v. Gage, 636 F.3d 834, 838 (7th Cir. 2011). As a result, “[a] judge will
not be deprived of immunity because the action he took was in error, was done maliciously, or was
in excess of his authority; rather, he will be subject to liability only when he has acted in the clear
absence of all jurisdiction.” Stump v. Sparkman, 435 U.S. 349, 356 (1978). In assessing whether
a defendant is entitled to judicial immunity, the court considers ‘“whether it is a function normally
performed by a judge’ and the ‘expectations of the parties, i.e., whether they dealt with the judge
in his judicial capacity’” and “whether the act ‘involves the exercise of discretion or judgment, or
is rather a ministerial act which might as well have been committed to a private person as to a
judge.’” Kowalski v. Boliker, 893 F.3d 987, 998 (7th Cir. 2018) (citations omitted). Based on
Johnston’s allegations, the court concludes that Judge McGinnis is immune from liability in this
action. Johnston only complains about actions Judge McGinnis took in his judicial capacity.
Therefore, Johnston’s claims against Judge McGinnis must be dismissed. In addition, Johnston
cannot assert a claim against the State of Wisconsin because it is entitled to Eleventh Amendment
immunity. See Will v. Mich. Dep’t of State Police, 491 U.S. 58 (1989). Johnston has provided no

3
Case l:20-cv-00810-WCG Filed 07/20/20 Page 3 of 4 Document 19

arguable basis for relief, having failed to make any rational argument in law or fact to support her
claims. See House v. Belford, 956 F.2d 711, 720 (7th Cir. 1992).
IT IS THEREFORE ORDERED that Fuss is dismissed as a plaintiff from this action.
IT IS FURTHER ORDERED that this action is DISMISSED for failure to state a claim.
IT IS FURTHER ORDERED that Defendants’ motion to dismiss (Dkt. No. 17) is
DENIED as moot.
IT IS FURTHER ORDERED that the Clerk of Court enter judgment accordingly.
Dated at Green Bay, Wisconsin this 20th day of July, 2020.
s/ William C. Griesbach
William C. Griesbach
United States District Judge
This order and the judgment to follow are final. Plaintiff may appeal this court’s decision to the Court
of Appeals for the Seventh Circuit by filing in this court a notice of appeal within 30 days of the entry
ofjudgment. See Fed. R. App. P. 3, 4. This court may extend this deadline if a party timely requests an
extension and shows good cause or excusable neglect for not being able to meet the 30-day deadline.
See Fed. R. App. P. 4(a)(5)(A). If Plaintiff appeals, he will be liable for the $505.00 appellate filing fee
regardless of the appeal’s outcome., If Plaintiff seeks leave to proceed in forma pauperis on appeal, he
must file a motion for leave to proceed in forma pauperis with this court. See Fed. R. App. P. 24(a)(1).
Plaintiff may be assessed another “strike” by the Court of Appeals if his appeal is found to be nonmeritorious. See 28 U.S.C. § 1915(g). If Plaintiff accumulates three strikes, he will not be able to file
an action in federal court (except as a petition for habeas corpus relief) without prepaying the filing fee
unless he demonstrates that he is in imminent danger of serous physical injury. Id.
Under certain circumstances, a party may ask this court to alter or amend its judgment under Federal
Rule of Civil Procedure 59(e) or ask for relief from judgment under Federal Rule of Civil Procedure
60(b). Any motion under Federal Rule of Civil Procedure 59(e) must be filed within 28 days of the
entry of judgment. Any motion under Federal Rule of Civil Procedure 60(b) must be filed within a
reasonable time, generally no more than one year after the entry of judgment. The court cannot extend
these deadlines. See Fed. R. Civ. P. 6(b)(2).
A party is expected to closely review all applicable rules and determine, what, if any, further action is
appropriate in a case.

4
Case l:20-cv-00810-WCG Filed 07/20/20 Page 4 of 4 Document 19

